No. 19-930
IN THE SUPREME COURT OF THE UNITED STATES
CIC SERVICES, LLC,
Petitioner,
v.
INTERNAL REVENUE SERVICE; DEPARTMENT OF TREASURY;
UNITED STATES OF AMERICA,
Respondents.
CERTIFICATE OF SERVICE

I, Patrick Strawbridge, counsel for Petitioner, hereby certify that on this 6th
day of July, 2020, I caused eleven copies of the foregoing Motion to be filed with the
Clerk of the United States Supreme Court via first-class mail, and to be
electronically served on the following:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
(202) 514-2217
/s/Patrick Strawbridge
Patrick Strawbridge
CONSOVOY MCCARTHY PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
(617) 227-0548
patrick@consovoymccarthy.com
Counsel for Petitioner

